U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: James Gatto v. United States of America
S.Ct. No. 21-169
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 2,
2021, and placed on the docket on August 5, 2021. The government’s response is due on
September 7, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 7, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0169
GATTO, JAMES
USA

MICHAEL S. SCHACHTER
WILLKIE FARR & GALLAGHER LLP
787 SEVENTH AVENUE
NEW YORK , NY 10019
212-728-8000
MSCHACHTER@WILLKIE.COM

